Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




  QUESTIONABLE BILLING FOR
   MEDICARE OUTPATIENT
     THERAPY SERVICES




                    Daniel R. Levinson
                     Inspector General

                      December 2010
                     OEI-04-09-00540
   E X E C U T I V E                      S U M M A R Y


                  OBJECTIVE
                  To identify questionable billing for Medicare outpatient therapy
                  services in 2009.


                  BACKGROUND
                  Outpatient therapy is designed to improve, restore, and/or compensate
                  for loss of functioning following illness or injury. Medicare expenditures
                  for outpatient therapy increased 133 percent between 2000 and 2009,
                  from $2.1 billion to $4.9 billion, while the number of Medicare
                  beneficiaries receiving outpatient therapy increased only 26 percent,
                  from 3.6 million to 4.5 million.

                  Medicare limits (i.e., caps) its annual per-beneficiary outpatient therapy
                  expenditures. Providers may exceed a beneficiary’s cap if the services
                  are medically necessary and are supported by medical record
                  documentation. If services are expected to exceed an annual cap,
                  providers must indicate this when submitting the claim to Medicare.

                  We identified 20 counties that had in 2009 (1) the highest average
                  Medicare payment per beneficiary and (2) more than $1 million in total
                  Medicare payments for outpatient therapy (i.e., high-utilization
                  counties). We analyzed Miami-Dade County, Florida, separately
                  because it had the highest average Medicare payments per beneficiary
                  among the high-utilization counties and the highest total Medicare
                  payments for outpatient therapy in 2009. Additionally, prior Office of
                  Inspector General work has demonstrated that Miami-Dade County is a
                  high-risk area for Medicare fraud.

                  We then determined the extent to which levels of outpatient therapy
                  billing characteristics in the 20 high-utilization counties differed from
                  national levels. These included the following six questionable billing
                  characteristics that may indicate fraud: (1) services for which providers
                  indicated that an annual cap would be exceeded, (2) beneficiaries whose
                  providers indicated that an annual therapy cap would be exceeded on
                  the beneficiaries’ first date of service, (3) payments for beneficiaries who
                  received outpatient therapy from multiple providers, (4) payments for
                  therapy services provided throughout the year, (5) payments for services
                  that exceeded an annual cap, and (6) providers who were paid for more
                  than 8 hours of outpatient therapy provided in a single day. We did not
                  assess the medical necessity of outpatient therapy services.


OEI-04-09-00540   QUESTIONABLE BILLING   FOR   M E D I C A R E O U T PAT I E N T T H E R A P Y S E R V I C E S   i
E X E C U T I V E              S U        M M A R Y




                   FINDINGS
                   Medicare per-beneficiary spending on outpatient therapy services in
                   Miami-Dade County was three times the national average in 2009.
                   Medicare paid an average of $3,459 per Miami-Dade beneficiary for
                   outpatient therapy, compared to an average of $1,078 nationally. Each
                   therapy beneficiary in Miami-Dade County received an average of 158
                   services during 2009, while the national average was 49 services per
                   beneficiary. Medicare also paid therapy providers that served Miami-
                   Dade beneficiaries an average of $83,867, eight times the average
                   amount it paid providers that served beneficiaries in other counties
                   nationally ($10,131). Providers that served Miami-Dade beneficiaries
                   provided an average of 3,828 outpatient therapy services, eight times
                   the average number of services by providers that served beneficiaries in
                   other counties nationally (458).
                   Miami-Dade County had at least three times the national levels for
                   five of the six questionable billing characteristics in Medicare
                   outpatient therapy services. Five of the six questionable billing
                   characteristics occurred in Miami-Dade County at three to four times
                   the national levels. Specifically, (1) providers serving beneficiaries in
                   Miami-Dade County indicated that outpatient therapy services would
                   exceed an annual cap four times as often as providers nationally,
                   (2) providers serving Miami-Dade beneficiaries indicated on claims that
                   an annual cap would be exceeded on the beneficiaries’ first date of
                   service four times as often as providers nationally, (3) the average
                   Medicare payment for Miami-Dade beneficiaries who received
                   outpatient therapy from multiple providers was three times the national
                   average, (4) Miami-Dade beneficiaries were three times as likely to
                   receive outpatient therapy throughout the year as beneficiaries
                   nationally, and (5) Miami-Dade beneficiaries were three times as likely
                   to exceed an annual cap as beneficiaries nationally.
                   Medicare per-beneficiary spending on outpatient therapy in the
                   other high-utilization counties was 72 percent greater than the
                   national average; these counties also exhibited questionable billing
                   but to a lesser extent than Miami-Dade County. Medicare paid an
                   average of $1,852 per beneficiary in 19 other high-utilization counties,
                   72 percent greater than the national average of $1,078. Additionally, as
                   a group, these counties had at least twice the national level for five of
                   the six questionable billing characteristics in Medicare outpatient



 OEI-04-09-00540   QUESTIONABLE BILLING   FOR   M E D I C A R E O U T PAT I E N T T H E R A P Y S E R V I C E S   ii
E X E C U T I V E         S U      M M A R Y




                        therapy services we reviewed. Further, each of these counties had at
                        least twice the national level for 1 or more of the 6 characteristics.


                        RECOMMENDATIONS
                        We found that high-utilization counties had high levels of
                        per-beneficiary spending and questionable billing characteristics
                        compared to national levels. Our findings demonstrate that outpatient
                        therapy services in Miami-Dade County, as well as 19 other high-
                        utilization counties nationwide, warrant additional review as part of
                        ongoing Medicare antifraud activities.
                        We recommend that the Centers for Medicare & Medicaid Services
                        (CMS):
                        Target outpatient therapy claims in high-utilization areas for further
                        review. CMS should monitor utilization trends and use this information
                        to target providers in geographic areas that may be susceptible to fraud.
                        Target outpatient therapy claims with questionable billing
                        characteristics for further review. CMS should use the questionable
                        billing characteristics we identified to analyze and monitor claims data
                        to detect and deter fraud and abuse.
                        Review geographic areas and providers with questionable billing
                        and take appropriate action based on results. Prior to payment, CMS
                        should review claims submitted by providers with high levels of
                        questionable billing and in geographic areas with high utilization to
                        ensure that they are legitimate. If CMS determines that fraudulent
                        claims have been submitted, it should take steps to suspend payments
                        to these providers and recover overpayments to them.
                        Revise the current therapy cap exception process. We found that
                        providers in high-utilization counties used the KX modifier and exceeded
                        annual therapy caps at levels much higher than the national average.
                        The current therapy cap exception process does not ensure appropriate
                        utilization of Medicare outpatient therapy services. CMS should consider
                        developing per-beneficiary edits and maximum payment amounts to
                        control overutilization of outpatient therapy services.




      OEI-04-09-00540   QUESTIONABLE BILLING   FOR   M E D I C A R E O U T PAT I E N T T H E R A P Y S E R V I C E S   iii
E X E C U T I V E            S U     M M A R Y




                       AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                       RESPONSE
                       In its written comments on this report, CMS concurred with all four of
                       our recommendations and described actions it would take to address
                       them. We support CMS’s efforts to address these issues and encourage
                       it to continue making progress in these areas. We did not make changes
                       to the report based on CMS’s comments.




     OEI-04-09-00540   QUESTIONABLE BILLING   FOR   M E D I C A R E O U T PAT I E N T T H E R A P Y S E R V I C E S   iv
   T A B L E             O F            C O N T E N T S


        EXECUTIVE SUMMARY .....................................i




        INTRODUCTION ........................................... 1




        F I N D I N G S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12 

                   Medicare per-beneficiary spending on outpatient therapy 

                   services in Miami-Dade County was three times the national

                   average in 2009 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12 



                   Miami-Dade County had at least three times the national levels 

                   for five of the six questionable billing characteristics in Medicare 

                   outpatient therapy services . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14 



                   Medicare per-beneficiary spending on outpatient therapy 

                   services in the other high-utilization counties was 72 percent

                   greater than the national average; these counties also exhibited

                   questionable billing but to a lesser extent than Miami-Dade 

                   County . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16 



        R E C O M M E N D A T I O N S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19 

                   Agency Comments and Inspector General Response. . . . . . . . . . . 20 



        A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22 

                   A: 	HCPCS Codes for Medicare Outpatient Therapy Services, 

                      Fee Schedule Amounts, and Medicare Payments, 2009 . . . . . . 22 


                   B: 	Questionable Billing Characteristic for 20 High-Utilization 

                       Counties, Compared to National Levels. . . . . . . . . . . . . . . . . . 24 


                   C: 	Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25 




        A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 28 

 I I N NIT TNR RTO ORD DO
                        U UC
                           D C TUT I CI O TO N IN        O N


                           OBJECTIVE
                           To identify questionable billing for Medicare outpatient therapy
                           services in 2009.


                           BACKGROUND
                           Outpatient therapy is designed to improve, restore, and/or compensate
                           for loss of functioning following illness or injury. Medicare expenditures
                           for outpatient therapy increased 133 percent between 2000 and 2009,
                           from $2.1 billion to $4.9 billion, while the number of Medicare
                           beneficiaries receiving outpatient therapy increased only 26 percent,
                           from 3.6 million to 4.5 million. 1, 2, 3
                           Medicare beneficiaries are eligible to receive outpatient therapy under
                           Medicare Part B. Medicare covers three types of outpatient therapy:

                            physical therapy (PT): diagnosis and treatment of impairments,
                             functional limitations, disabilities, or changes in physical function
                             and health status; 4
                            occupational therapy (OT): treatment to improve or restore
                             functions that have been impaired (or permanently lost or reduced)
                             because of illness or injury, to improve the individual’s ability to
                             perform tasks required for independent functioning; 5 and
                            speech language pathology (SLP): diagnosis and treatment of
                             speech and language disorders, that result in communication
                             disabilities or swallowing disorders. 6
                           PT services account for the majority of Medicare payments for
                           outpatient therapy. In 2009, PT services represented approximately
                           74 percent ($3.6 billion) of Medicare expenditures for outpatient therapy


                             1 Computer Sciences Corporation (CSC), CY 2006 Outpatient Therapy Services
                           Utilization Report, February 2008. Accessed at
                           http://www.cms.hhs.gov/TherapyServices/downloads/2_CY2006OutpatientTherapyUtilizatio
                           nReport_PDF_Final.pdf on June 17, 2009.
                             2 Office of Inspector General (OIG) analysis of Centers for Medicare & Medicaid Services
                           (CMS) claims data, April 2010. The percentage increase is based on unrounded figures.
                             3 “Expenditures” describes the amount paid by Medicare after the Part B coinsurance.
                           This represents approximately 80 percent of the amount allowed by Medicare.
                             4   CMS, Medicare Benefit Policy Manual, Pub. No. 100-02, ch. 15, § 230.1.
                             5   Ibid., § 230.2.
                             6   Ibid., § 230.3.



     OEI-04-09-00540       QUESTIONABLE BILLING    FOR   M E D I C A R E O U T PAT I E N T T H E R A P Y S E R V I C E S   1
I N T R O D       U C T           I O N



                  services. 7 OT services accounted for 19 percent ($945 million) and SLP
                  services accounted for 7 percent ($328 million) of all Medicare
                  expenditures for outpatient therapy. 8
                  Each type of outpatient therapy service must be provided in accordance
                  with a written plan of care established by an appropriate medical
                  professional, such as a physician or physical therapist. 9 The service
                  must be appropriate for the beneficiary’s condition and reasonable in
                  terms of frequency and duration under accepted standards of practice.
                  Further, outpatient therapy must be provided to improve a beneficiary’s
                  functioning level. 10 Therefore, Medicare does not typically cover
                  services provided to maintain a beneficiary’s existing level of
                  functioning. 11
                  Outpatient therapy may be provided in a variety of settings. In addition
                  to covering services provided in physicians’ and therapists’ offices,
                  Medicare covers outpatient therapy provided by hospitals, skilled
                  nursing facilities, outpatient rehabilitation facilities, comprehensive
                  outpatient rehabilitation facilities, and home health agencies. 12
                  Medicare Payment for Outpatient Therapy Services
                  Medicare pays for most outpatient therapy services according to the
                  Medicare Physician Fee Schedule (fee schedule). 13 Medicare reimburses
                  the provider 80 percent of either the fee schedule amount or the actual

                    7   OIG analysis of CMS claims data, April 2010.
                    8   Ibid.
                    9 42 CFR § 410.61(a) and (b). See also 42 CFR § 410.59(a)(2), § 410.60(a)(2), and
                  § 410.62(a)(2).
                    10 CMS,     Medicare Benefit Policy Manual, Pub. No. 100-02, ch. 15, § 220.2.
                    11 CMS,    Medicare Benefit Policy Manual, Pub. No. 100-02, ch. 15, § 220.2.D. The
                  services of a therapy provider are not necessary to carry out maintenance treatment and
                  are not covered under ordinary circumstances. However, if the patient’s safety is at risk
                  and the functional maintenance services involve complex and sophisticated therapy
                  procedures, the judgment and skill of a therapist may be necessary for the safe and effective
                  delivery of such services.
                    12 CMS, Medicare Claims Processing Manual, Pub. No. 100-04, ch. 5, § 10. Accessed at
                  http://www.cms.hhs.gov/manuals/downloads/clm104c05.pdf on June 17, 2009. Hospitals
                  may provide outpatient therapy to outpatients and to inpatients when they are not covered
                  under Part A. Skilled nursing facilities may provide outpatient therapy to residents and
                  nonresidents when they are not covered under Part A. Home health agencies may provide
                  outpatient therapy only to individuals who are not homebound or are not receiving services
                  under home health plans of care. For beneficiaries who are under home health plans of
                  care, Medicare pays for rehabilitation therapy services provided by home health agencies at
                  the home health prospective payment system rate.
                    13 Ibid. Applies to all settings except Critical Access Hospitals, which are paid on a

                  reasonable cost basis.



OEI-04-09-00540   QUESTIONABLE BILLING   FOR   M E D I C A R E O U T PAT I E N T T H E R A P Y S E R V I C E S   2
I N T R O D        U C T          I O N



                  charge (whichever is lower), and the beneficiary is responsible for the
                  remaining 20 percent. 14

                  All outpatient therapy services are reported to Medicare using
                  Healthcare Common Procedure Coding System (HCPCS) codes. 15 In
                  2009, Medicare covered outpatient therapy under 75 HCPCS codes.
                  Some of the services billed using these codes are considered outpatient
                  therapy services only when billed by a therapist. 16 To indicate that the
                  claim is for outpatient therapy, a provider must add a modifier to the
                  code on the claim. 17 The modifier also indicates whether the service
                  was PT, OT, or SLP. 18 The 2009 fee schedule amounts for these
                  services ranged from $5.05 for hot- or cold-pack therapy (HCPCS 97010)
                  and infrared therapy (HCPCS 97026) to $182.86 for a test involving the
                  beneficiary’s vocal cords (HCPCS 92616). 19 Appendix A provides a list
                  of the 75 HCPCS codes, the associated fee schedule amounts, and total
                  Medicare payments in 2009.

                  Medicare reimburses providers at different rates based on the setting in
                  which the service is provided. Physicians and therapists in private
                  practice who serve beneficiaries in their offices may be paid at the
                  nonfacility rate, which includes additional reimbursement for some
                  services to account for additional overhead expenses. 20
                  Medicare per-beneficiary payment limits. Medicare limits (i.e., caps) its
                  annual per-beneficiary outpatient therapy services expenditures unless
                  the services are furnished by or under arrangement with a hospital.
                  The Balanced Budget Act of 1997 added the caps as a way to control
                  increasing therapy costs. 21 The caps have been updated annually since
                  2002 using the Medicare Economic Index. 22


                    14   Ibid.
                    15   Ibid.
                    16 Ibid., § 20.
                    17 Ibid., § 20. Modifiers are two-digit codes appended to HCPCS codes to provide
                  additional information about the billed service. In some cases, addition of a modifier may
                  directly affect payment.
                    18 Billing providers use the modifier GP to indicate PT services, GO to indicate OT
                  services, and GN to indicate SLP services. These three modifiers are for informational
                  purposes only and do not affect payment.
                    19 HCPCS 92616 is described in the Medicare Physician Fee Schedule as a “laryngeal
                  sense test.”
                    20   CMS, Medicare Claims Processing Manual, Pub. No. 100-04, ch. 5, § 10.
                    21 Ibid.
                    22   Ibid., § 10.2.



OEI-04-09-00540   QUESTIONABLE BILLING    FOR   M E D I C A R E O U T PAT I E N T T H E R A P Y S E R V I C E S   3
I N T R O D        U C T          I O N



                   In 2009, a beneficiary could receive a combination of PT and SLP
                   services for which Medicare allowed up to $1,840 before exceeding the
                   cap; the cap for OT services was also $1,840. 23, 24 The caps are
                   determined on a calendar-year basis, meaning that beneficiaries’
                   services begin counting toward the cap on January 1 of each year.

                   The beneficiary may qualify for use of the cap exceptions process when
                   documented, medically necessary services exceed an annual cap. 25 By
                   adding a modifier (KX) to the HCPCS code on the claim, the provider
                   attests that the services are reasonable and necessary, and are
                   supported by documentation in the medical record indicating that the
                   beneficiary requires continued outpatient therapy and qualifies for an
                   exception. Providers should use the KX modifier only when services are
                   expected to exceed an annual cap. According to the Medicare Claims
                   Processing Manual, “[u]se of the KX modifier when there is no
                   indication that the cap is likely to be exceeded is abusive.” 26
                   Fraud in Medicare Outpatient Therapy Services
                   Outpatient therapy service providers have been prosecuted for
                   defrauding the Medicare program in recent years. For example, OIG
                   and the Department of Justice (DOJ) investigated a Detroit-area
                   provider who pled guilty in 2009 to an $18 million fraud scheme. This
                   provider paid kickbacks to hundreds of Medicare beneficiaries in
                   exchange for their Medicare identification numbers. The numbers were
                   used to bill for PT and OT services that were never provided to the
                   beneficiaries. 27 In 2004, an OIG investigation resulted in a $325 million
                   settlement with one therapy provider for alleged fraud. 28 The types of
                   alleged fraud included services that lacked a certified plan of care and




                     23 CMS, Medicare Claims Processing Manual, Pub. No. 100-04, Transmittal No. 1678,

                   Change Request 6321 (February 13, 2009).
                     24 In 2010, caps were increased to $1,860.
                     25 CMS, Medicare Claims Processing Manual, Pub. No. 100-04, ch. 5, § 10.2.
                     26   Ibid.
                     27 DOJ, Detroit-Area Rehabilitation Facility Executive Pleads Guilty To $18.2 Million
                   Medicare Fraud Scheme, September 28, 2009. Accessed at
                   http://www.justice.gov/opa/pr/2009/September/09-crm-1040.html on February 23, 2010.
                     28 DOJ, HealthSouth To Pay United States $325 Million To Resolve Medicare Fraud
                   Allegations, December 30, 2004. Accessed at
                   http://www.usdoj.gov/opa/pr/2004/December/04_civ_807.htm on June 17, 2009.



 OEI-04-09-00540   QUESTIONABLE BILLING   FOR   M E D I C A R E O U T PAT I E N T T H E R A P Y S E R V I C E S   4
I N T R O D        U C T      I O N



                   services provided by inappropriate personnel. 29 In this case, services
                   were not performed by licensed physical therapists, as required.
                   Medicare Fraud in Miami-Dade County
                   Miami-Dade County, Florida, has been a focus area of efforts to combat
                   Medicare fraud, waste, and abuse in recent years. OIG has published
                   reports indicating that Miami-Dade County is at high risk for
                   fraudulent Medicare claims, including infusion therapy services for
                   beneficiaries with HIV/AIDS, home health services, inhalation drugs,
                   and ultrasound services. 30 Additionally, in 2007, HHS and DOJ
                   established a joint Medicare Fraud Strike Force (Strike Force) team in
                   South Florida to combat Medicare fraud. Strike Forces are teams of
                   Federal, State, and local investigators that combat fraud in certain
                   areas of the country by analyzing current Medicare claims data. 31 In
                   July 2010, the Strike Force in South Florida charged 24 defendants in
                   Miami for allegedly participating in various schemes that resulted in
                   approximately $103 million in false billing. 32
                   These schemes involved fraudulent billing for physical therapy services,
                   as well as other types of services. HHS and DOJ also created the
                   Health Care Fraud Prevention and Enforcement Action Team (HEAT)




                      29 CMS, Medicare Benefit Policy Manual, Pub. No. 100-02, ch. 15, §§ 230.1, 230.2, and
                   230.3. In addition to covering services provided by therapists and physicians, Medicare
                   covers therapy provided by physician assistants, nurse practitioners, and clinical nurse
                   specialists if permitted by the States in which they practice. Qualified physical and
                   occupational assistants are also covered if they are supervised. All therapy providers must
                   be licensed, certified, or registered to practice in the States in which they provide services
                   and have passed a national examination. However, some outpatient therapy services must
                   be provided only by therapists. CMS, Medicare Claims Processing Manual,
                   Pub. No. 100-04, ch. 5, § 20.
                     30 The Department of Health & Human Services (HHS) OIG, Aberrant Billing in South

                   Florida for Beneficiaries With HIV/AIDS, OEI-09-07-00030, September 2007; HHS OIG,
                   Aberrant Medicare Home Health Outlier Payment Patterns in Miami-Dade County and
                   Other Geographic Areas in 2008, OEI-04-08-00570, November 2009; HHS OIG, Aberrant
                   Claim Patterns for Inhalation Drugs in Miami-Dade County, OEI-03-08-00290, April 2009;
                   and HHS OIG, Medicare Part B Billing for Ultrasound, OEI-01-08-00100, July 2009.
                     31 HHS News Release, Strike Force Formed To Target Fraudulent Billing of Medicare

                   Program by Health Care Companies. Accessed at
                   http://www.hhs.gov/news/press/2007pres/05/20070509c.html on February 23, 2010.
                     32 Nationwide Strike Force operations in July 2010 resulted in charges against
                   94 doctors and over $251 million in alleged false billing. HHS and DOJ, Medicare Fraud
                   Strike Force Charges 94 Doctors, Health Care Company Owners, Executives and Others for
                   More Than $251 Million in Alleged False Billing. Accessed at
                   http://www.stopmedicarefraud.gov/innews/dc.html#july-16-2010 on July 28, 2010.



 OEI-04-09-00540   QUESTIONABLE BILLING   FOR   M E D I C A R E O U T PAT I E N T T H E R A P Y S E R V I C E S     5
I N T R O D        U C T      I O N



                    to strengthen and expand efforts to combat health care fraud, waste,
                    and abuse. 33
                    Medicare Program Integrity
                    CMS uses program safeguard contractors (PSC) and Zone Program
                    Integrity Contractors (ZPIC) to perform program integrity
                    responsibilities, including data analysis; investigations; and other
                    activities to reduce fraud, waste, and abuse. 34 PSCs and ZPICs identify
                    overpayments associated with their investigations and notify the
                    appropriate claims-processing contractor to collect the overpayments.

                    CMS is authorized to suspend Medicare payments to providers
                    suspected of committing fraud. 35 Additionally, the Social Security Act
                    specifies circumstances under which the Secretary of HHS must exclude
                    certain entities from Medicare and other circumstances under which the
                    Secretary may, at his or her discretion, exclude entities.36


                    METHODOLOGY
                    Scope
                    We reviewed national Part B Medicare outpatient therapy claims from
                    2009. Our population consisted of claims from the 100-percent paid
                    claims data from the National Claims History (NCH) File and includes
                    claims processed by fiscal intermediaries, carriers, and Medicare
                    Administrative Contractors (MAC). 37, 38



                      33 HHS, Attorney General Holder and HHS Secretary Sebelius Announce New
                    Interagency Health Care Fraud Prevention and Enforcement Action Team. Accessed at
                    http://www.hhs.gov/news/press/2009pres/05/20090520a.html on February 23, 2010.
                      34 CMS is replacing PSCs with ZPICs.
                      35 42 CFR § 405.371. CMS may suspend approved payments if it suspects overpayment
                    to a provider or if a provider has engaged in fraud or willful misrepresentation of claims.
                      36 Social Security Act § 1128. The Secretary of HHS has delegated the exclusion
                    authority to OIG.
                      37 In 2009, Medicare contracted with fiscal intermediaries, carriers, and MACs to process
                    outpatient therapy claims. Generally, fiscal intermediaries processed claims from
                    institutions and carriers processed claims from physicians, certain nonphysician
                    practitioners, and physical and occupational therapists in private practice. CMS began the
                    process of replacing its fiscal intermediaries and carriers with MACs in October 2005.
                    MACs assumed claims processing from both fiscal intermediaries and carriers as the
                    transitions occurred.
                      38 We used the files with claims processed through December 31, 2009, for our analysis.
                    These files are estimated to be 88 percent complete; that is, they included approximately
                    88 percent of all claims for outpatient therapy services provided during 2009.



 OEI-04-09-00540    QUESTIONABLE BILLING   FOR   M E D I C A R E O U T PAT I E N T T H E R A P Y S E R V I C E S   6
I N T R O D          U C T     I O N



                        We defined outpatient therapy claims as those billed under one of the
                        75 outpatient therapy HCPCS codes with one of the three modifiers that
                        specify whether the service was PT, OT, or SLP. We did not assess the
                        medical necessity of outpatient therapy or compliance with Medicare
                        billing requirements.
                        Identification of High-Utilization Counties
                        To identify high-utilization counties, we assigned each Medicare
                        outpatient therapy claim in our population to a county based on the
                        beneficiary’s residence. 39 We determined the total Medicare payments
                        for outpatient therapy in each county. We also calculated the average
                        payment for outpatient therapy services per therapy beneficiary in each
                        county. 40 We then identified 20 counties that had (1) the highest
                        average Medicare payment per beneficiary and (2) more than $1 million
                        in total Medicare payments for outpatient therapy services. 41 We refer
                        to these counties as “high-utilization counties.” See Figure 1 for a map
                        showing their locations.




                           39 We used the Social Security Administration standard county code of a beneficiary’s

                        residence. Our population included 3,721 county codes; however, some of the county codes
                        may have been inaccurately reported. The U.S. Census Bureau estimates there are
                        3,141 counties and county equivalents in the United States. U.S. Census Bureau, Census
                        Bureau Tip Sheet, January 16, 2009. Accessed at
                        http://www.census.gov/newsroom/releases/archives/tip_sheets/tp09-02.html on
                        May 24, 2010.
                           40 We calculated numbers of therapy services based on the units of service on each claim
                        line with a therapy HCPCS code. That is, we considered a claim line with a unit count of
                        “2” (for example, the beneficiary received two 15-minute increments of a timed service) as
                        having two services.
                          41 Nationally, the average of total payments within a county was $1.3 million. Counties
                        with less than $1 million accounted for 16 percent of all Medicare payments for outpatient
                        therapy services nationally.



   OEI-04-09-00540      QUESTIONABLE BILLING   FOR   M E D I C A R E O U T PAT I E N T T H E R A P Y S E R V I C E S   7
I N T R O D        U C T      I O N



                        Figure 1: Counties With Highest Utilization of Medicare Outpatient
                                            Therapy Services, 2009




                    Analysis of Billing in High-Utilization Counties and Nationally
                    We categorized the claims into three groups: (1) Miami-Dade County,
                    (2) the other 19 high-utilization counties combined, and (3) national.
                    We analyzed Miami-Dade County separately because it had the highest
                    average Medicare payments per beneficiary among the high-utilization
                    counties and the highest total Medicare payments for outpatient
                    therapy in 2009. 42
                    To determine how billing for outpatient therapy in high-utilization
                    counties compared to national billing, we calculated the average
                    Medicare payments and number of services per beneficiary in Miami-
                    Dade County, in the other 19 high-utilization counties combined, and
                    nationally. We also calculated the average payment and number of
                    services per provider serving beneficiaries in a county. We compared




                      42 Fifteen of the 3,721 counties had a higher average payment per beneficiary than
                    Miami-Dade County. Medicare paid a total of less than $1 million for outpatient therapy in
                    these 15 counties, combined. All but 1 of these 15 counties was reported with an inaccurate
                    county code.



 OEI-04-09-00540    QUESTIONABLE BILLING   FOR   M E D I C A R E O U T PAT I E N T T H E R A P Y S E R V I C E S   8
I N T R O D        U C T      I O N



                   both averages for Miami-Dade County and the other 19 high-utilization
                   counties combined to national averages. 43
                   We used the National Provider Identifier Directory to identify providers
                   that received over $1 million in total Medicare payments for outpatient
                   therapy. We calculated these providers’ total payments for outpatient
                   therapy. We then determined how many of these providers were located
                   in Miami-Dade County and the other 19 high-utilization counties.

                   Questionable billing characteristics. By using past OIG work on Medicare
                   billing and in consultation with representatives of the Medicare PSCs,
                   we identified six billing characteristics that may indicate fraud in
                   outpatient therapy services. For example, a high prevalence of these
                   characteristics may indicate inappropriate billing, such as providers’
                   billing for services that were unnecessary or not provided. These
                   characteristics were:
                    Average number of outpatient therapy services per beneficiary that
                     providers indicated would exceed an annual cap. According to
                     therapy fraud experts within the PSCs, the KX modifier is often
                     overused and/or used inappropriately. We calculated the average
                     number of services per beneficiary that had the KX modifier.
                    Percentage of outpatient therapy beneficiaries whose providers
                     indicated that an annual cap would be exceeded on the beneficiaries’
                     first date of service in 2009. Providers should use the KX modifier
                     only when providing services that are expected to exceed an annual
                     cap. This is unlikely to occur on the beneficiary’s first date of
                     service in a new calendar year. We identified beneficiaries whose
                     providers billed Medicare using the KX modifier on the
                     beneficiaries’ first date of service in calendar year 2009.
                    Average Medicare payment per beneficiary who received outpatient
                     therapy from multiple providers. This characteristic raises concerns
                     about stolen Medicare identification numbers or “professional
                     beneficiaries” who exchange their identification numbers for
                     kickbacks from providers. We identified beneficiaries who received



                     43 Beneficiaries who received services in more than one county and providers that served
                   beneficiaries in more than one county during 2009 are included in multiple counties in the
                   national averages. In 2009, 4,531,609 beneficiaries received outpatient therapy from
                   81,170 providers. Less than 1 percent of these beneficiaries lived in more than one county.
                   Providers served outpatient therapy beneficiaries in an average of six counties.



 OEI-04-09-00540   QUESTIONABLE BILLING   FOR   M E D I C A R E O U T PAT I E N T T H E R A P Y S E R V I C E S   9
I N T R O D          U C T   I O N



                         outpatient therapy from more than one provider in 2009 and
                         calculated the average reimbursement per beneficiary in 2009.
                        Percentage of outpatient therapy beneficiaries whose providers were
                         paid for services provided throughout the year. Therapy services
                         are appropriate for improving the beneficiary’s functioning level,
                         but not for maintaining an existing level of functioning. We
                         identified beneficiaries who received outpatient therapy during all
                         four quarters of 2009.
                        Percentage of outpatient therapy beneficiaries whose providers were
                         paid for services that exceeded one of the annual caps. We
                         identified beneficiaries who received either a combination of PT and
                         SLP services or OT services, excluding those provided in hospitals,
                         for which Medicare allowed more than $1,840.
                        Percentage of outpatient therapy beneficiaries whose providers were
                         paid for more than 8 hours of outpatient therapy provided in a
                         single day. According to PSC representatives, providing more than
                         8 hours of therapy to a beneficiary in a single day is usually
                         medically unnecessary and/or infeasible because of the
                         characteristics of the Medicare population and the nature of
                         services provided. We identified HCPCS codes for which the unit of
                         service represents a specific amount of time (typically, 15 minutes)
                         spent in direct contact with the beneficiary on any single calendar
                         day. We then determined how many of these services a beneficiary
                         received on the same day.
                       We determined the incidence of the 6 characteristics in Miami-Dade
                       County, in the other 19 high-utilization counties combined, and
                       nationally. We calculated the levels of the characteristics nationally
                       and for the 19 high-utilization counties by combining all outpatient
                       therapy claims in each of these two groups. For example, to determine
                       the average number of services per beneficiary billed with the KX
                       modifier, we identified the total number of services billed with the KX
                       modifier in each group and divided these sums by the total number of
                       outpatient therapy beneficiaries in each group. The approach we used
                       resulted in weighted averages based on county size. See Appendix B for
                       the incidence of the six characteristics within each high-utilization
                       county.
                       Limitations
                       The six characteristics are not intended to be a comprehensive set of
                       characteristics for identifying questionable billing. Also, although the

   OEI-04-09-00540     QUESTIONABLE BILLING   FOR   M E D I C A R E O U T PAT I E N T T H E R A P Y S E R V I C E S   10
I N T R O D           U C T   I O N



                         presence of such characteristics raises questions about the
                         appropriateness of outpatient therapy claims, it does not necessarily
                         mean that such claims are inappropriate or fraudulent.

                         The findings in this report are based on Medicare claims for services
                         provided in 2009 and cannot be generalized to any other time period.
                         Standards
                         This study was conducted in accordance with the Quality Standards for
                         Inspections approved by the Council of the Inspectors General on
                         Integrity and Efficiency.




    OEI-04-09-00540      QUESTIONABLE BILLING   FOR   M E D I C A R E O U T PAT I E N T T H E R A P Y S E R V I C E S   11
F I   N F D I I N N DG I S N G S


                                                              Medicare paid $159 million for
 Medicare per-beneficiary spending on outpatient
                                                              outpatient therapy services provided
     therapy services in Miami-Dade County was                to Miami-Dade beneficiaries, the
         three times the national average in 2009             highest of any county in 2009. On
                                                              average, per-beneficiary spending on
                            outpatient therapy services in Miami-Dade County was three times the
                            national average in 2009. Miami-Dade beneficiaries also received three
                            times as many services as beneficiaries nationally. Providers serving
                            Miami-Dade beneficiaries received eight times the average payment and
                            provided eight times the average number of services as providers that
                            served beneficiaries elsewhere. Table 1 compares these averages in
                            Miami-Dade County with national averages.



                            Table 1. Medicare Outpatient Therapy Services in Miami-Dade County
                            Compared to National Levels, 2009
                                                                                                                                         Ratio of Miami-
                                                                                           Miami-Dade                                      Dade County
                                                                                               County                    National            Average to
                             Outpatient Therapy Utilization                                   Average                   Average*       National Average

                            Medicare payments per beneficiary                                       $3,459                    $1,078                 3:1

                            Number of services per beneficiary                                           158                     49                  3:1

                            Medicare payments per provider serving
                            beneficiaries in a county                                             $83,867                    $10,131                 8:1

                            Number of services per provider serving
                            beneficiaries in a county                                                 3,828                     458                  8:1
                            * Beneficiaries who received services in more than one county and providers that served beneficiaries in more
                            than one county during 2009 are included in multiple counties in the national averages. In 2009, 4,531,609
                            beneficiaries received outpatient therapy from 81,170 providers. Less than 1 percent of these beneficiaries
                            lived in more than one county. Providers served outpatient therapy beneficiaries in an average of six
                            counties.
                            Note: All figures have been rounded to nearest whole number.
                            Source: OIG analysis of 2009 Medicare outpatient therapy claims, 2010.


                            These outpatient therapy utilization levels did not occur in all counties
                            with high Medicare outpatient therapy payments. For example, Los
                            Angeles County, California, the county with the second-highest total
                            payments ($125 million in 2009), was home to more than twice as many
                            outpatient therapy beneficiaries as Miami-Dade County. However, the
                            average per-beneficiary payment and average payment per provider
                            that served beneficiaries in Los Angeles County more closely resembled
                            the national averages than did Miami-Dade County. The ratios of Los
                            Angeles County to national averages for payments per beneficiary and
                            per provider were 1:1 and 3:1, respectively.



          OEI-04-09-00540   QUESTIONABLE BILLING     FOR   M E D I C A R E O U T PAT I E N T T H E R A P Y S E R V I C E S                           12
F   I N D I N G       S




                      Medicare paid an average of $3,459 per Miami-Dade beneficiary for
                      outpatient therapy services, compared to an average of $1,078 nationally
                      Medicare paid an average of $3,459 per Miami-Dade beneficiary for
                      outpatient therapy in 2009. This was the second-highest of all counties
                      nationally and was over three times the national average of $1,078 per
                      beneficiary. 44 In contrast, Medicare paid an average of $1,294 per Los
                      Angeles beneficiary. For 10 Miami-Dade beneficiaries, Medicare paid
                      over $278,000 for outpatient therapy in 2009, an average of $27,810 per
                      beneficiary.
                      Outpatient therapy beneficiaries in Miami-Dade County received an average
                      of 158 services, compared to an average of 49 services nationally
                      Miami-Dade beneficiaries received an average of 158 outpatient therapy
                      services in 2009. The average number of services per Miami-Dade
                      beneficiary was the highest of all high-utilization counties and was
                      three times the national average of 49 services. In contrast,
                      beneficiaries in Los Angeles County received an average of
                      54 outpatient therapy services.
                      Medicare paid providers serving Miami-Dade beneficiaries an average of
                      $83,867 for outpatient therapy, compared to an average of $10,131 nationally
                      Medicare paid outpatient therapy providers that served Miami-Dade
                      beneficiaries an average of $83,867 in 2009, eight times the average
                      amount it paid providers that served beneficiaries in other counties
                      nationally ($10,131). In contrast, Medicare paid providers that served
                      beneficiaries in Los Angeles County an average of $26,814.
                      Additionally, 52 of the 235 providers that received over $1 million in
                      Medicare payments for outpatient therapy services in 2009 were located
                      in Miami-Dade County. These Miami-Dade providers received a total of
                      $88 million, with payments ranging from $1 million to $4 million.
                      Providers serving Miami-Dade beneficiaries provided an average of
                      3,828 services, compared to an average of 458 services nationally
                      Providers that served Miami-Dade beneficiaries provided an average of
                      3,828 outpatient therapy services in 2009, eight times the average
                      number of services by providers that served beneficiaries in other
                      counties nationally (458). In contrast, providers that served
                      beneficiaries in Los Angeles County provided an average of
                      1,124 services.

                        44 The highest Medicare payment per beneficiary in counties reported with accurate
                      codes was $4,452. Payments in this county for outpatient therapy totaled $623,000.



    OEI-04-09-00540   QUESTIONABLE BILLING   FOR   M E D I C A R E O U T PAT I E N T T H E R A P Y S E R V I C E S   13
F    I N D I N G              S



    Miami-Dade County had at least three times the                     Miami-Dade County exceeded the
     national levels for five of the six questionable                  national level for five of the six
                                                                       questionable billing characteristics
      billing characteristics in Medicare outpatient
                                                                       in Medicare outpatient therapy
                                     therapy services
                                                                       services we reviewed by at least a
                                  factor of three. Table 2 compares, for each characteristic, levels in
                                  Miami-Dade County to the national levels.


        Table 2. Questionable Outpatient Therapy Billing in Miami-Dade County Compared to
        National Levels, 2009
                                                                                     Miami-Dade                                         Ratio of Miami-Dade
        Characteristic                                                                   County                       National           County to National

        Average number of outpatient therapy services per
        beneficiary that providers indicated would exceed an
        annual cap                                                                                   60                            14                   4:1

        Percentage of outpatient therapy beneficiaries whose
        providers indicated that an annual cap would be exceeded
        on the beneficiaries’ first date of service in 2009                                       20%                          5%                       4:1

        Average Medicare payment per beneficiary who received
        outpatient therapy from multiple providers                                            $5,664                     $1,670                         3:1

        Percentage of outpatient therapy beneficiaries whose
        providers were paid for services provided throughout the
        year                                                                                      10%                          3%                       3:1

        Percentage of outpatient therapy beneficiaries whose
        providers were paid for services that exceeded an annual
        cap                                                                                       63%                        22%                        3:1

        Percentage of outpatient therapy beneficiaries whose
        providers were paid for more than 8 hours of outpatient
        therapy provided in a single day                                                         0.3%                       0.7%                       <1:1
       Note: All figures have been rounded to nearest whole number.
       Source: OIG analysis of 2009 Medicare outpatient therapy claims, 2010.



                                  Providers serving beneficiaries in Miami-Dade County indicated that
                                  outpatient therapy services would exceed an annual cap four times as
                                  often as providers nationally
                                  Providers serving Miami-Dade beneficiaries were paid for an average of
                                  60 outpatient therapy services per beneficiary for which they billed
                                  Medicare using the KX modifier in 2009. Services billed with the KX
                                  modifier represented an average of 38 percent of each Miami-Dade
                                  beneficiary’s total number of outpatient therapy services. Nationally,
                                  providers were paid for an average of 14 services with the KX modifier
                                  per beneficiary, representing an average of 29 percent of all outpatient
                                  therapy services.



        OEI-04-09-00540           QUESTIONABLE BILLING     FOR   M E D I C A R E O U T PAT I E N T T H E R A P Y S E R V I C E S                        14
F   I N D I N G       S



                      Providers serving Miami-Dade beneficiaries indicated that an annual cap
                      would be exceeded on the beneficiaries’ first date of service four times
                      more often than providers nationally
                      For 20 percent of therapy beneficiaries in Miami-Dade County,
                      providers used the KX modifier on their first date of service in 2009.
                      Nationally, providers used the KX modifier on beneficiaries’ first date of
                      service in 2009 for 5 percent of therapy beneficiaries. Payments for
                      these claims in Miami-Dade County totaled nearly $3 million.
                      According to the Medicare Claims Processing Manual, this practice may
                      be abusive. 45
                      This characteristic was not prevalent in all counties with high Medicare
                      therapy payments. For example, providers serving beneficiaries in Cook
                      County, Illinois, the county with the third-highest Medicare outpatient
                      therapy payments ($92 million in 2009), used the KX modifier on the
                      beneficiaries’ first date of service only 5 percent of the time.
                      The average Medicare payment for Miami-Dade beneficiaries who received
                      outpatient therapy from multiple providers was three times the national
                      average
                      Twenty-nine percent of outpatient therapy beneficiaries in Miami-Dade
                      County were served by more than one provider in 2009. Medicare paid
                      an average of $5,664 for these beneficiaries. Nationally, 18 percent of
                      outpatient therapy beneficiaries were served by more than one provider.
                      Medicare paid an average of $1,670 for each of these beneficiaries.
                      Miami-Dade beneficiaries were three times as likely to receive outpatient
                      therapy throughout the year as beneficiaries nationally
                      Ten percent of Miami-Dade beneficiaries received outpatient therapy
                      during all four quarters of 2009. In contrast, 3 percent of outpatient
                      therapy beneficiaries nationally received services during all four
                      quarters.
                      Miami-Dade beneficiaries were three times as likely to exceed an annual cap
                      as beneficiaries nationally
                      Medicare allowed payment above an annual cap for 63 percent of
                      outpatient therapy beneficiaries in Miami-Dade County in 2009. That
                      is, these beneficiaries received either a combination of PT and SLP
                      services or OT services, excluding those provided in hospitals, that cost



                          45 CMS,   Medicare Claims Processing Manual , Pub. No. 100-04, ch. 5, § 10.2.



    OEI-04-09-00540   QUESTIONABLE BILLING   FOR   M E D I C A R E O U T PAT I E N T T H E R A P Y S E R V I C E S   15
     F   I N D I N G       S


                           more than $1,840. Nationally, 22 percent of beneficiaries exceeded an
                           annual cap.
                           Ninety-four percent of Medicare payments to providers serving beneficiaries in
                           Miami-Dade County were attributed to beneficiaries who exceeded an annual
                           cap. Medicare paid providers that served Miami-Dade beneficiaries who
                           exceeded an annual cap $150 million in 2009, accounting for 94 percent
                           of all payments to providers serving Miami-Dade beneficiaries.
                           Medicare paid an average of $5,162 for outpatient therapy provided to
                           each of these beneficiaries, almost three times the cap amount of $1,840.
                           Nationally, 63 percent of payments were for beneficiaries who exceeded
                           an annual cap. Medicare paid an average of $3,169 nationally for
                           beneficiaries who exceeded an annual cap.



 Medicare per-beneficiary spending on outpatient               As a group, the 19 other high-
 therapy in the other high-utilization counties was            utilization counties accounted for a
                                                               total of $162 million in Medicare
72 percent greater than the national average; these
                                                               payments for outpatient therapy in
counties also exhibited questionable billing but to
                                                               2009. Medicare paid an average of
     a lesser extent than Miami-Dade County                    $1,852 per beneficiary in these
                                                               counties, 72 percent greater than the
                                                               national average of $1,078.
                           Beneficiaries who received outpatient therapy in these counties received
                           an average of 83 services in 2009, compared to the national average of
                           49 services per beneficiary. Medicare paid an average of $21,131 per
                           provider for outpatient therapy provided to beneficiaries in these
                           counties, compared to the national average of $10,131 per provider.
                           Additionally, 12 of the 243 providers that received over $1 million in
                           Medicare payments for outpatient therapy in 2009 were located in these
                           19 counties and received a total of $19 million.
                           The 19 high-utilization counties combined had at least twice the national
                           level for 5 of the 6 questionable billing characteristics
                           As a group, these 19 high-utilization counties had at least twice the
                           national level for 5 of the 6 questionable billing characteristics in Medicare
                           outpatient therapy services we reviewed. Table 3 compares these high-
                           utilization counties to Miami-Dade County and national levels of the six
                           characteristics.




         OEI-04-09-00540   QUESTIONABLE BILLING   FOR   M E D I C A R E O U T PAT I E N T T H E R A P Y S E R V I C E S   16
F   I N D I N G              S




     Table 3. Questionable Outpatient Therapy Billing Characteristics in Miami-Dade County and
     19 High-Utilization Counties Combined Compared to National Levels, 2009
                                                                                                                 19 Other                      Ratio of the 19
                                                                                            Miami-                    High-                   High-Utilization
                                                                                             Dade               Utilization                      Counties to
     Characteristic                                                                         County               Counties          National          National

     Average number of outpatient therapy services per
     beneficiary that providers indicated would exceed an annual
     cap                                                                                             60                       37        14                3:1

     Percentage of outpatient therapy beneficiaries whose
     providers indicated that an annual cap would be exceeded on
     the beneficiaries’ first date of service in 2009                                             20%                         9%        5%                2:1

     Average Medicare payment per beneficiary who received
     outpatient therapy from multiple providers                                               $5,664                  $3,152        $1,670                2:1

     Percentage of outpatient therapy beneficiaries whose
     providers were paid for services provided throughout the year                                10%                     14%           3%                4:1

     Percentage of outpatient therapy beneficiaries whose
     providers were paid for services that exceeded an annual cap                                 63%                     38%         22%                 2:1

     Percentage of outpatient therapy beneficiaries whose
     providers were paid for more than 8 hours of outpatient
     therapy provided in a single day                                                            0.3%                    1.0%         0.7%                1:1

     Note: All figures have been rounded to nearest whole number.
     Source: OIG analysis of 2009 Medicare outpatient therapy claims, 2010.




                              The 19 high-utilization counties combined had lower levels than Miami-
                              Dade County for 4 of the 6 characteristics. The characteristics that
                              were more prevalent in these 19 counties than in Miami-Dade County
                              were the percentages of beneficiaries who (1) received outpatient
                              therapy throughout the year and (2) received over 8 hours of outpatient
                              therapy in 1 day. Fourteen percent of beneficiaries in these counties
                              received outpatient therapy throughout the year. In contrast, 3 percent
                              of outpatient therapy beneficiaries nationally and 10 percent of Miami-
                              Dade beneficiaries received services throughout the year. Additionally,
                              the percentage of beneficiaries who received over 8 hours of outpatient
                              therapy in 1 day was slightly greater in these 19 high-utilization
                              counties than nationally and in Miami-Dade County.
                              Each of the 19 high-utilization counties had at least twice the national level
                              for 1 or more of the 6 questionable billing characteristics
                              Individually, each high-utilization county had at least twice the
                              national level for one or more of the six questionable billing
                              characteristics. Four of the 19 counties had at least twice the national
                              level for at least 3 of the 6 characteristics.


    OEI-04-09-00540           QUESTIONABLE BILLING    FOR   M E D I C A R E O U T PAT I E N T T H E R A P Y S E R V I C E S                        17
F     I N D I N G       S


                      The levels of some characteristics were high in many of these
                      19 counties. For example, in 11 high-utilization counties, the
                      percentages of beneficiaries that received more than 8 hours of
                      outpatient therapy in 1 day were at least twice the national average.
                      Additionally, in 8 of these 11 counties, at least 5 percent of therapy
                      beneficiaries received over 8 hours of outpatient therapy in 1 day, over
                      7 times the national average. See Appendix B for each high-utilization
                      county’s questionable billing levels.




    OEI-04-09-00540   QUESTIONABLE BILLING   FOR   M E D I C A R E O U T PAT I E N T T H E R A P Y S E R V I C E S   18
R   E C O    M M E N D A T            I O N            S
     R E C O M M E N D A T I O N S



                       Miami-Dade County, Florida, had the highest total Medicare payments
                       for outpatient therapy in 2009. We found that per-beneficiary spending
                       on outpatient therapy in Miami-Dade County was three times the
                       national average in 2009. We also found that Miami-Dade County had
                       high levels of questionable billing for outpatient therapy. Miami-Dade
                       County exceeded the national levels for five of the six questionable
                       billing characteristics we reviewed by at least a factor of three.
                       Nineteen other high-utilization counties exhibited questionable
                       characteristics in billings for Medicare outpatient therapy services in
                       2009, but to a lesser extent than Miami-Dade County. The presence of
                       these characteristics raises questions about the appropriateness of
                       outpatient therapy claims but does not necessarily mean that such
                       claims are inappropriate or fraudulent.

                       South Florida, and Miami-Dade County in particular, has been the
                       focus of efforts to combat Medicare fraud, waste, and abuse in recent
                       years. In May 2009, HHS and DOJ established an interagency team to
                       combat health care fraud nationwide focusing on South Florida and
                       several other geographic areas. Our findings demonstrate that
                       outpatient therapy services in Miami-Dade County and other high-
                       utilization counties warrant additional review as part of ongoing
                       Medicare antifraud activities.
                       We recommend that CMS:
                       Target outpatient therapy claims in high-utilization areas for further review
                       We found that high-utilization counties have high levels of questionable
                       billing characteristics compared to national levels. CMS should monitor
                       utilization trends, such as therapy expenditures per provider and per
                       beneficiary, and use this information to target providers in geographic
                       areas that may be susceptible to fraud.
                       Target outpatient therapy claims with questionable billing characteristics
                       for further review
                       CMS should use the questionable billing characteristics we identified to
                       analyze and monitor claims data to detect and deter fraud and abuse.
                       As part of its analysis, CMS should examine claims for characteristics
                       that are readily identifiable, such as providers that frequently bill for
                       services using the KX modifier on the beneficiary’s first date of service
                       in the calendar year and those that become evident across beneficiaries’
                       and providers’ claims over time. For example, CMS could identify
                       providers that bill for high numbers of services per beneficiary using the

     OEI-04-09-00540   QUESTIONABLE BILLING   FOR   M E D I C A R E O U T PAT I E N T T H E R A P Y S E R V I C E S   19
R   E C O     M M E N D A T            I O N             S



                       KX modifier, relative to the national or surrounding geographic area’s
                       levels.
                       Review geographic areas and providers with questionable billing and take
                       appropriate action based on results
                       When geographic areas are found to have high or increasing utilization
                       of outpatient therapy or when monitoring identifies providers with high
                       levels of questionable billing, CMS should review selected claims prior
                       to payment to ensure that they are legitimate. If CMS determines that
                       fraudulent claims have been submitted, it should take steps to suspend
                       payments to these providers and recover overpayments to them. To
                       assist CMS, we will provide a list of additional high-utilization counties
                       and non-high-utilization counties with high levels of questionable billing
                       characteristics under separate cover. Additionally, we will consider
                       providers with high levels of questionable billing for investigation.
                       Revise the current therapy cap exception process
                       We found that providers in high-utilization counties used the KX
                       modifier and exceeded annual therapy caps at levels much higher than
                       the national average. The current therapy cap exception process does
                       not ensure appropriate utilization of Medicare outpatient therapy
                       services. CMS should consider developing per-beneficiary edits and
                       maximum payment amounts to control overutilization of outpatient
                       therapy services. Unless CMS claims-processing contractors use edits
                       or review claims prior to payment, the current therapy cap exceptions
                       process does not identify or limit unusually high annual per-beneficiary
                       utilization. CMS could determine payment amounts that only a small
                       percentage of beneficiaries would surpass in a single year. Claims that
                       exceed these maximum amounts would automatically be subject to
                       medical review prior to payment.


                       AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                       RESPONSE
                       CMS concurred with all four recommendations. Through several of its
                       PSCs and ZPICs, CMS is engaged in data analysis of outpatient therapy
                       services. For example, CMS is monitoring specific geographic areas and
                       has already identified claim characteristics and utilization patterns that
                       may detect and deter fraud and abuse in certain designated high-risk
                       areas. CMS’s analyses have already resulted in investigations and
                       referrals to law enforcement, which subsequently led to criminal
                       indictments and arrests. In addition, the MAC in Miami, Florida,


     OEI-04-09-00540   QUESTIONABLE BILLING   FOR   M E D I C A R E O U T PAT I E N T T H E R A P Y S E R V I C E S   20
R   E C O        M M E N D A T           I O N                S


                      instituted a prepayment edit to lower the utilization rate for outpatient
                      therapy services.

                      CMS also stated that when PSCs and ZPICs identify geographic areas
                      with high or increasing outpatient therapy utilization, it takes
                      corrective actions, such as onsite reviews, prepayment edits, and
                      postpayment reviews.

                      Regarding the last recommendation, CMS concurs with the need to
                      address the limitations of the current therapy cap exceptions process
                      and is developing both short-term and long-term options. CMS included
                      the following short-term options in the 2011 Physician Fee Schedule
                      Proposed Rule:

                       requiring the reporting of new patient function-related Level II
                        HCPCS codes and severity modifiers,
                       applying medical necessity edits when per-beneficiary expenditures
                        reach a predetermined value, and
                       introducing per-session codes to bundle payment for groups of
                        current therapy codes into a single per-session payment.

                      For the long term, CMS is developing a therapy-related data collection
                      instrument that includes measurement items relevant to payment.

                      We support CMS’s efforts to address these issues and encourage it to
                      continue making progress in these areas. We will consider providers
                      with high levels of questionable billing for investigation. We will also
                      share a list of these providers with CMS so it may take appropriate
                      action. We did not make changes to the report based on CMS’s
                      comments. For the full text of CMS’s comments, see Appendix C.




    OEI-04-09-00540   QUESTIONABLE BILLING   FOR   M E D I C A R E O U T PAT I E N T T H E R A P Y S E R V I C E S   21
     A P P E N D I X ~ A



    HCPCS Codes for Medicare Outpatient Therapy Services, Fee Schedule Amounts, and Medicare
    Payments, 2009*

                                                                                   Nonfacility
                                                                                        Fee                Facility Fee           Number of
    HCPCS                                                                           Schedule                 Schedule              Medicare    Total Medicare
    Code      Description                                                            Amount                   Amount                Claims          Payments
    97110     Therapeutic exercises                                                     $28.49                     $28.49         49,229,880   $1,994,469,190
    97530     Therapeutic activities                                                    $29.94                     $29.94         16,920,929     $604,742,625
    97140     Manual therapy                                                            $26.33                     $26.33         18,279,063    $502,444,717
    97112     Neuromuscular reeducation                                                 $29.21                     $29.21         12,435,150     $375,879,132
    97001     Physical therapy evaluation                                               $69.25                     $69.25          4,199,233     $227,015,902
    97116     Gait training therapy                                                     $24.89                     $24.89          8,951,914    $205,988,238
    92526     Oral function therapy                                                     $77.54                     $26.69          2,902,618    $177,572,847
    97535     Self care management training                                             $30.30                     $30.30          4,646,094     $172,681,674
    G0283     Electrical stimulation other than wound                                   $11.90                     $11.90          9,585,421      $89,965,073
    97113     Aquatic therapy/exercises                                                 $35.35                     $35.35          1,165,459      $83,420,907
    92507     Speech/hearing therapy                                                    $61.67                     $25.25          1,604,393      $76,822,378
    97035     Ultrasound therapy                                                        $11.54                     $11.54          6,746,273      $65,794,786
    97003     Occupational therapy evaluation                                           $73.22                     $73.22          1,003,691      $58,465,572
    97032     Electrical stimulation                                                    $16.59                     $16.59          2,695,018      $43,038,732
    97532     Cognitive skills development                                              $24.16                     $24.16            698,410      $27,702,946
    97150     Group therapeutic procedures                                              $18.03                     $18.03          1,782,119      $25,539,949
    97124     Massage therapy                                                           $22.72                     $22.72          1,134,287      $24,108,635
    97542     Wheelchair management training                                            $27.05                     $27.05            604,481      $22,473,139
    92610     Swallowing function evaluation                                            $61.67                     $61.67            309,513      $18,705,280
    92506     Speech/hearing evaluation                                                $154.00                     $42.56            160,331      $17,864,825
    97760     Orthotic management and training                                          $32.82                     $32.82            459,094      $17,180,166
    97002     Physical therapy reevaluation                                             $37.15                     $37.15            557,614      $16,760,845
    97597     Active wound care: 20 cm or less                                          $62.03                     $27.41            239,873      $10,640,377
    97012     Mechanical traction therapy                                               $14.43                     $14.43            846,893       $9,761,844
    92611     Motion fluoroscopy/swallowing                                             $70.69                     $70.69            109,937       $7,643,271
    97033     Electric current therapy                                                  $25.61                     $25.61            323,713       $6,694,468
    97022     Whirlpool therapy                                                         $18.39                     $18.39            401,468       $5,551,642
    97750     Physical performance test                                                 $28.85                     $28.85            135,518       $4,428,371
    97016     Vasopneumatic device therapy                                              $15.51                     $15.51            354,614       $4,193,393
    97024     Diathermy, e.g., microwave                                                 $5.41                      $5.41            639,190       $2,734,629
    97598     Active wound care: greater than 20 cm                                     $76.46                     $37.15             42,363       $2,434,433
    97004     Occupational therapy reevaluation                                         $41.84                     $41.84             54,982       $1,911,344
    97018     Paraffin bath therapy                                                      $8.30                      $8.30            261,651       $1,734,700
    97761     Prosthetic training                                                       $28.85                     $28.85             39,514       $1,666,576
    97762     Checkout for orthotic/prosthetic use                                      $36.07                     $36.07             46,457       $1,605,450
    92508     Speech/hearing therapy                                                    $29.57                     $12.98             60,355       $1,393,711
    97533     Sensory integration                                                       $25.97                     $25.97             37,384       $1,129,882
* Healthcare Common Procedure Coding System (HCPCS) codes provide a standardized coding system used by Medicare to describe specific items
and services.
Sources: Medicare Physician Fee Schedule (2009) and Office of Inspector General analysis of 2009 Medicare outpatient therapy claims.



         OEI-04-09-00540           QUESTIONABLE BILLING   FOR   M E D I C A R E O U T PAT I E N T T H E R A P Y S E R V I C E S                   22
A   P    P E N D             I X          A




        Continued: HCPCS Codes for Medicare Outpatient Therapy Services, Fee Schedule Amounts, and
        Medicare Payments, 2009*
                                                                                                Nonfacility
                                                                                                     Fee                 Facility Fee          Number of
        HCPCS                                                                                    Schedule                  Schedule             Medicare   Total Medicare
        Code           Description                                                                Amount                    Amount               Claims         Payments
        97026          Infrared therapy                                                               $5.05                      $5.05           237,206      $1,000,552
        G0281          Unattended electrical stimulation                                             $11.90                     $11.90            98,928        $982,243
        97537          Community/work reintegration                                                  $26.69                     $26.69            21,681       $952,940
        92609          Use of speech device service                                                  $86.92                     $86.92            11,348       $718,044
        97034          Contrast bath therapy                                                         $15.15                     $15.15            48,020       $587,001
        92612          Endoscopy swallowing test (fees)                                             $152.92                     $63.48             5,013        $579,374
        92597          Oral speech device evaluation                                                $102.79                     $42.92             6,329       $526,915
        95831          Limb muscle testing, manual                                                   $24.89                     $13.71            22,587        $472,713
        95851          Range of motion measurements                                                  $15.15                      $7.57            32,043       $441,859
        97605          Negative pressure wound treatment, < 50 cm                                    $35.35                     $25.25            14,514        $431,545
        64550          Application of neurostimulator                                                $13.71                      $8.66            35,634       $429,507
        90901          Biofeedback training, any method                                              $31.74                     $19.48            12,368        $411,492
        96125          Cognitive test by health care professional                                    $94.86                     $80.79             4,259       $386,866
        0183T**        Wound ultrasound                                                               $0.00                      $0.00             4,115        $357,281
        97036          Hydrotherapy                                                                  $26.33                     $26.33            10,401        $261,857
        97039**        Physical therapy treatment                                                     $0.00                      $0.00            10,609        $244,501
        97755          Assistive technology assessment                                               $33.18                     $33.18             2,755       $237,770
        92607          Exam for speech device treatment, 1 hour                                     $162.30                    $162.30             2,071       $236,062
        96105          Assessment of aphasia                                                         $74.66                     $74.66             2,484        $188,254
        G0329          Electromagnetic treatment for ulcers                                           $7.93                      $7.93            18,724       $134,480
        97139**        Physical medicine procedure                                                    $0.00                      $0.00             5,543       $105,235
        97606          Negative pressure wound treatment, > 50 cm                                    $37.87                     $27.77             2,613         $92,541
        92616          Laryngeal sense test                                                         $182.86                     $93.05               529         $80,436
        95852          Range of motion measurements                                                  $12.26                      $5.77             6,060         $58,720
        97799**        Physical medicine procedure                                                    $0.00                      $0.00               555         $56,642
        97028          Ultraviolet therapy                                                            $6.49                      $6.49            10,764         $55,970
        97010          Hot or cold pack therapy                                                       $5.05                      $5.05           220,633         $28,655
        92608          Exam for speech device treatment additional                                   $31.74                     $31.74               671         $28,006
        95832          Hand muscle testing, manual                                                   $24.16                     $14.79             1,167         $21,076
        97602***       Wound(s) care, nonselective                                                    $0.00                      $0.00            16,422         $19,433
        95833          Body muscle testing, manual                                                   $33.90                     $22.36               671         $17,408
        95834          Body muscle testing, manual                                                   $40.39                     $28.49               319          $9,849
        96111          Developmental test, extended                                                 $127.68                    $123.35                68          $6,189
        92614          Laryngoscopic sensory test                                                   $133.81                     $63.48                36          $3,797
        95992          Canalith repositioning procedure                                              $40.76                     $36.79               968          $1,125
        96110          Developmental test, limited                                                   $12.62                     $12.62                22            $404
        92605***       Evaluation for nonspeech device prescription                                   $0.00                      $0.00                60             $24
        92606***       Nonspeech device service                                                       $0.00                      $0.00               118              $0
        * Healthcare Common Procedure Coding System (HCPCS) codes provide a standardized coding system used by Medicare to describe specific items
        and services.
        ** No fee schedule amount exists for this code; the local carrier (or A/B Medicare Administrative Contractor) determines the coverage and pricing for
        this code.
        *** This code is a bundled service under the fee schedule.
        Sources: Medicare Physician Fee Schedule (2009) and Office of Inspector General analysis of 2009 Medicare outpatient therapy claims.


                 OEI-04-09-00540              QUESTIONABLE BILLING     FOR   M E D I C A R E O U T PAT I E N T T H E R A P Y S E R V I C E S                  23
            A P P E N D I X ~ B
Questionable Billing Characteristics for 20 High-Utilization Counties, Compared to National Levels

                                                                                                                                     Questionable Billing Characteristics
                                                                                                                                                                                                                              Number of
                                                                                   Average                 Percentage of                Average Payment       Percentage of                           Percentage of       Questionable
                                                                                 Number of                Services Billed                for Beneficiaries     Beneficiaries                           Beneficiaries             Billing
                                Average                                           Services               With KX Modifier                  Who Received           Receiving    Percentage of         With More Than     Characteristics
                                Payment                                     Billed With KX                on First Date of                 Services From           Services     Beneficiaries             8 Hours of     at Least Twice
                                      per           Total Medicare            Modifier per                    Service per                 More Than One      Throughout the       Exceeding              Service in a       the National
County/Parish                 Beneficiary                Payments               Beneficiary                   Beneficiary                        Provider              Year      Annual Cap               Single Day              Level*
National                         $1,078         $4,922,328,414                                14                          4.9%                    $1,670              3.1%           21.6%                     0.7%                 NA
Miami-Dade, FL                   $3,459           $159,180,288                                60                        20.2%                     $5,664              9.7%           63.0%                     0.3%                   5
St. Mary, LA                     $2,343               $1,571,955                              48                          7.2%                    $2,365              2.7%           35.3%                     6.1%                   2
Avoyelles, LA                    $2,054               $1,244,468                              43                        10.2%                     $2,103              2.6%           39.1%                     0.5%                   2
Leflore, MS                      $2,031               $1,062,159                              45                          6.9%                    $1,773              3.4%           29.6%                     0.6%                   1
Okeechobee, FL                   $2,026               $1,616,424                              17                          4.9%                    $4,301              4.0%           38.2%                     0.3%                   1
Kings, NY                        $1,972             $79,973,326                               41                          9.8%                    $3,361            16.8%            40.7%                     0.3%                   4
Rusk, TX                         $1,890               $1,124,662                              52                        16.6%                     $1,785              3.4%           30.1%                     6.2%                   3
Lauderdale, MS                   $1,814               $2,368,575                              39                        15.0%                     $2,883              2.7%           27.9%                     5.8%                   3
Liberty, TX                      $1,807               $1,442,333                              51                        15.0%                     $2,394              2.6%           27.8%                     5.8%                   3
Warren, MS                       $1,791               $1,296,449                              37                          4.3%                    $3,201              3.7%           38.0%                     1.0%                   1
Ouachita, LA                     $1,749               $3,255,832                              32                          6.9%                    $2,307              3.3%           31.8%                     5.0%                   2
Thomas, GA                       $1,747               $1,864,483                              45                          7.6%                    $2,024              2.2%           36.7%                     0.7%                   1
Lincoln, LA                      $1,747               $1,109,029                              39                          8.7%                    $2,493              2.7%           29.6%                     5.2%                   2
San Patricio, TX                 $1,744               $1,641,316                              33                          5.2%                    $2,821              3.1%           35.0%                     4.0%                   2
Acadia, LA                       $1,742               $1,332,625                              34                          3.3%                    $1,836              2.4%           31.5%                     1.7%                   2
Iberia, LA                       $1,742               $1,929,809                              27                          7.4%                    $1,506              2.1%           30.4%                     2.9%                   1
De Kalb, IN                      $1,739               $1,038,248                              48                          8.0%                    $1,973              2.7%           27.5%                     8.4%                   2
Angelina, TX                     $1,718               $2,283,187                              30                        10.0%                     $2,696              2.6%           34.6%                     1.4%                   2
Queens, NY                       $1,714             $53,872,258                               33                          8.0%                    $3,007            14.6%            37.3%                     0.5%                   2
Dubois, IN                       $1,676               $1,670,940                              36                          7.9%                    $1,753              2.8%           27.2%                     5.0%                   2
Note: Bolded figures indicate levels that are at least twice the national level.
* Figures are based on rounded questionable billing levels.
Source: Office of Inspector General analysis of 2009 Medicare outpatient therapy services claims.



        OEI-04-09-00540            QUESTIONABLE BILLING      FOR   M E D I C A R E O U T PAT I E N T T H E R A P Y S E R V I C E S                                                              24
     A P PEN D                         x        c
Agency Comments: Centers for Medicare & Medicaid Services


/$oP.. q,,,
(,~,!-
   tf... 	       DEPARTMENT OF HEALTH & HUMAN SERVICES                                         Centers for Medicare & Medicaid Services


                                                                                           AdminilJtrator
                                                                                               Washington, DC 20201




              DATE: 	        OCT 1 2 2010
              TO: 	          Daniel R. Levinson 

                             Inspector General 

                                                          /S/
              FROM: 	        Donald M. Berwick, M.D. 

                             Administrator 


              SUBJECT: 	 Office of Inspector General (OIG) Draft Report: "Questionable Billing for
                         Medicare Outpatient Therapy Services" (OEI-04-09-00540)


              Thank you for the opportunity to review and comment on the subject OIG draft report. The
              Office of Inspector General (OIG) study found that counties with high-utilization of outpatient
              therapies had high levels of per beneficiary spending and questionable billing characteristics
              compared to national levels. During this study, OIG's findings demonstrated that outpatient
              therapy services in Miami-Dade Cotmty and other high-utilization counties warrant additional
              review as part of ongoing Medicare antifraud activities.

              In its report, OIG made several recommendations to the Secretary of the Department of Health
              and Human Services and the Administrator ofthe Centers for Medicare & Medicaid Services
              (CMS). CMS responded to each of these recommendations for OIG's review and consideration.

              OIG Recommendation

              Target outpatient therapy claims in high-utilization areas for further review.

              CMS Response

              The CMS concurs with OIG's recommendation. CMS, through several ofits Program Safeguard
              Contractors (PSCs) and Zone Program Integrity Contractors (ZPICs) in certain designated high
              risk areas, is already engaged in extensive data analysis of outpatient therapy services. CMS is
              monitoring specific geographic areas by comparing per beneficiary spending in these area') with
              state-wide and national averages to target providers in geographic areas that may be susceptible
              to fraudulent activities. SafeGuard Services (SGS), the PSC responsible for New York, has
              successfully utilized extensive zip code comparative analyses for physical therapy, other
              outpatient therapy and other claim types for provider target identification. Such analyses have
              resulted in investigations and referrals to law enforcement in Brooklyn, NY, a HEAT Strike
              Force city, that subsequently led to criminal indictments and arrests. Other SGS contractors in
              other states are performing similar reviews. Likewise, Health Integrity, the ZPIC for Texas, has




     OEI·04·09·00540           QUESTIONABLE BILLING FOR MEDICARE OUTPATIENT THERAPY SERVICES
                                                                                                                                      25
A   P   P E N D           I X ~   C




        OEI-04-09-00540      QUESTIONABLE BILLING   FOR   M E D I C A R E O U T PAT I E N T T H E R A P Y S E R V I C E S
                                                                                                                            26
A   P   P E N D           I X ~   C




        OEI-04-09-00540      QUESTIONABLE BILLING   FOR   M E D I C A R E O U T PAT I E N T T H E R A P Y S E R V I C E S
                                                                                                                            27
     A C K N O W L E D G M E N T S


                  This report was prepared under the direction of Dwayne Grant, Regional
                  Inspector General for Evaluation and Inspections in the Atlanta regional
                  office, and Jaime Durley, Deputy Regional Inspector General.

                  Sarah Ambrose served as the team leader for this study and
                  Holly Williams served as the lead analyst. Other principal Office of
                  Evaluation and Inspections staff from the Atlanta regional office who
                  contributed to this report include Gerius Patterson; central office staff
                  who contributed include Kevin Farber and Arianne Spaccarelli.




OEI-04-09-00540   QUESTIONABLE BILLING   FOR   M E D I C A R E O U T PAT I E N T T H E R A P Y S E R V I C E S
                                                                                                                 28
                 Office of Inspector General
                                  http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
